CERTIFICATE OF COMPLIANCE
No.
ANTONIA LERNER,
Petitioner,
vs
CITIGROUP,
Respondent
As required by Supreme Court Rule 33.1(h), I
certify that the petition for a writ of certiorari
contains 2,136 words, excluding the parts of the
petition that are exempted by Supreme Court Rule
33.1(d). I declare under penalty of perjury that the
foregoing is true and correct.
Executed on May 9, 2021
ANTONIA LERNER
State of New York }
County of Kings } ss:
PERSONALLY SUBSCRIBED
AND SWORN BEFORE ME,
r,
THIS /^DAY OF/

BY AA'TVs't'/*

SERGEY 1ZHOVSKIY
Notary Public State of New York
No. 01IZ6114737
Qualified in Kings County
Commission Expftes August 23, 2024

